No. 20-86

In the
Supreme Court of the United States

Charles Daniels, Director,
Nevada Department of Corrections, et al.,
Petitioners,
v.
Ronald Ross,
Respondent.
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
Respondent’s Motion for Leave to Proceed In Forma Pauperis

Rene Valladares
Federal Public Defender,
District of Nevada
*Jonathan M. Kirshbaum
Assistant Federal Public Defender
411 E. Bonneville Ave., Ste. 250
Las Vegas, Nevada 89101
(702) 388-6577
Jonathan_Kirshbaum@fd.org
*Counsel for Respondent Ross

Respondent RONALD ROSS respectfully asks for leave to file the attached
Brief In Opposition without prepayment of costs and to proceed in forma pauperis.
Counsel was appointed by the United States District Court for the District of Nevada
under 18 U.S.C. § 3599(a)(2) and the United States Court of Appeals for the Ninth
Circuit allowed Ross to proceed on appeal without the prepayment of fees. See
SUPREME COURT RULE 39.1 (authorizing leave to proceed in forma pauperis when
counsel was appointed in lower court due to indigency). Accordingly, no affidavit is
attached.
Dated October 6, 2020
Respectfully submitted,
Rene L. Valladares
Federal Public Defender
/s/Jonathan M. Kirshbaum
Jonathan M. Kirshbaum
Assistant Federal Public Defender

2

